  SBA-SERVICED LIQUIDATION OF
CERTIFIED DEVELOPMENT COMPANY
             LOANS



             Report Number 9-11
         Date Issued: March 30, 2009




               Prepared by the
         Office of Inspector General
     U. S. Small Business Administration
           U.S. Small Business Administration
           Office Inspector General
                                                                         Memorandum
    To:    John A. Miller                                                                    Date:    March 30, 2009
           Director, Office of Financial Program Operations

  From:    /s/ original signed
           Debra S. Ritt
           Assistant Inspector General for Auditing
Subject:   Report on SBA-Serviced Liquidations of Certified Development Company Loans
           Report No. 9-11

           This report presents the results of our audit of the liquidation process of Certified
           Development Company (CDC) loans by the Small Business Administration (SBA).
           CDC loans are placed into liquidation when SBA purchases the debentures that
           guarantee these loans. Currently SBA does most of the liquidations, but some are
           done by Premier Certified Lenders (PCL) and Authorized CDC Liquidators (ACL).
           In February 2007, SBA centralized CDC liquidations by shifting liquidation
           responsibilities from the district offices to the two commercial loan service centers in
           Fresno, California and Little Rock, Arkansas.

           The audit objectives were to determine (1) whether SBA’s liquidation efforts
           maximized recoveries of outstanding balances on purchased CDC loans, and
           (2) whether centralization improved the liquidation process. To address the audit
           objectives, we reviewed a sample of 95 of 1,427 loans in liquidation as of July 29,
           2007 that had recorded purchase dates. Another 2,458 loans were in liquidation, but
           because their purchase dates could not be determined, they were excluded from our
           sample. 1 The 95 sampled loans had an outstanding loan balance of $29.3 million and
           consisted of 54 that were in the process of being liquidated, 22 that had been charged
           off, 18 that had been paid-in-full, and 1 that became current after purchase. Of the 95
           loans, 52 had been purchased before centralization and 43 were purchased after
           centralization. A listing of the sampled loans is presented in Appendix I, and our
           sampling methodology is provided in Appendix II.
           1
               Without purchase date information, we could not calculate the length of time these loans were in liquidation and/or the
               timeliness of specific liquidation actions. Furthermore, purchase dates were required in order to evaluate improvements
               in liquidation activities before and after centralization.
                                                                                  2


To determine whether SBA maximized recoveries on loans in liquidation, we
compared actions taken on the sampled loans to requirements established in the
Agency’s standard operating procedure (SOP) 50 51(2). Our analysis focused on
whether SBA pursued all collateral and other available assets, made reasonable
compromise decisions, and properly charged off loans and referred them to the United
States Treasury Department.

To determine whether centralization had improved liquidation efforts, we compared
the timeliness and completeness of liquidation actions taken on loans processed by the
district offices with those of the service centers. We reviewed SBA loan files,
interviewed SBA and CDC personnel, and analyzed related financial and
chronological postings from SBA’s databases. We conducted our audit between
October 2007 and October 2008, in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States.

BACKGROUND
SBA’s 504 Loan Program provides small businesses with long-term, fixed-rate
financing for the purchase of land, buildings, machinery, or other fixed assets in the
form of government-guaranteed loans. These loans are issued through a partnership
with CDCs and private sector third-party lenders and are funded through the issuance
of government guaranteed debentures. CDCs are non-profit corporations that are
certified and regulated by SBA to package, process, close, and service CDC loans.
There are currently 271 active CDCs, of which 30 PCLs and ACLs have liquidation
authority.

CDCs notify SBA when a loan is in default and not expected to return to current
status, or when a loan is subject to legal action, such as a foreclosure notice or a
bankruptcy filing. Upon such notice, SBA purchases the debenture and places it into
liquidation. With the exception of PCL-approved loans, SBA incurs all of the
associated losses. PCLs pay SBA 10 percent of the loss on purchased loans approved
under the PCL program. As of November 30, 2008, SBA had 844 loans totaling
$418.3 million in liquidation.

Historically, SBA’s 74 district offices processed all CDC liquidations. In February
2007, SBA transferred liquidation responsibility to the Fresno and Little Rock
Commercial Loan Service Centers. During the audit period, these centers reported to
the Office of Financial Assistance (OFA). The transfer of responsibility was intended
to reduce staffing and unit costs to liquidate the loans, and to substantially improve
consistency in applying SBA’s liquidation policies and procedures, among other
reasons. Recently, responsibility for the centers has been transferred to the Office of
Program Operations (OFPO).
                                                                                   3


After centralization of the liquidation process, SBA granted CDCs a greater role in the
liquidation process. In May 2007, 13 CFR 120 was revised to require that CDCs
designated as PCLs liquidate and handle debt-collection litigation for their entire loan
portfolios. In addition, SBA authorized non-PCL CDCs that were designated as
ACLs to perform liquidation and debt-collection actions. Finally, for SBA-serviced
liquidations, the Agency can request that CDCs assist in the liquidation process. This
assistance includes communicating with borrowers, assisting with litigation actions,
and liquidating collateral, among other things.

RESULTS IN BRIEF
SBA did not maximize opportunities to recover $12.7 million in outstanding loan
balances on 30 of the 95 CDC loans we examined. Ten of the 95 loans were in
liquidation for over 18 months, of which 6 were in liquidation in excess of 3 years.
Based on the sample results, we estimate that SBA missed opportunities to collect at
least $106 million on the 1,427 loans with recorded purchase dates that were in
liquidation status as of July 29, 2007.

SBA missed collection opportunities because it did not fully execute actions in all of
the key areas of the liquidation process. Specifically, SBA did not adequately or
timely:

   •   conduct protective bid analyses;

   •   obtain current appraisals;

   •   perfect liens;

   •   identify and pursue all available assets;

   •   attempt or reach compromises reflective of obligors’ repayment ability;

   •   properly charge off loans; or

   •   refer charged-off loans to Treasury.

In the first 6 months after centralization, there was no measurable improvement in the
percentage of loans with fully completed liquidation actions at the service centers.
Specifically, the service centers completed actions on 71 percent of the loans,
compared to 72 percent of the loans that the district offices had completed actions on
prior to centralization. After centralization, increases occurred in the percentage of
loans with inadequate collateral liquidation, insufficient negotiated compromises, or
improper referrals to Treasury. However, some improvement occurred in two of the
five liquidation activities—pursuing guarantors and all available assets, and charging
off loan balances.
                                                                                      4


More significant improvements were not observed in the loans we sampled because
the two centers inherited a large number of incomplete loan files and focused
resources on reducing a backlog of older loans awaiting charge-off that had been
transferred from the district offices. Prior to centralization, the backlog of loans that
were 24 months or older was as high as 509. This number was reduced to 153 by
April 2008.

Since April 2008, SBA has re-engineered the liquidation process and increased
staffing at the two centers. It implemented a loan tracking system allowing the
centers to better monitor the status of loans and established a triage unit that
distributes loans to different loan liquidation specialists based on required actions to
expedite loan liquidation. These process improvements are expected to expedite
referral of loans to Treasury for further debt collection and, by September 30, 2008,
had resulted in a reduction of loans that were older than 24 months to 137, even as
new purchases increased.

We recommended that the Director of OFPO evaluate whether staffing and process
improvements, introduced after the audit was completed, have enabled the centers to
complete all required liquidation actions, and, if not, make appropriate staffing and
process adjustments as necessary to ensure that loans are properly liquidated.
Management agreed with our recommendation and stated that it would monitor the
504 liquidation process to ensure that all liquidation actions material to recovery are
taking place and that loans are properly liquidated.

RESULTS
SBA Liquidation Actions Did Not Maximize Recoveries on Purchased CDC
Loans

SBA did not complete all of the five key areas of the liquidation process on 30 of the
95 loans reviewed, missing opportunities to collect $12.7 million on the loans in
liquidation. SOP 50 51 (2) identifies the following five key liquidation activities that
must be completed prior to charging off any unpaid balances:

   •   Identifying, evaluating and disposing of collateral. To maximize collection
       of collateral, SBA must ensure all collateral is accounted for and assessed so
       that SBA can determine the best course of action in disposing of the collateral.
       Once a CDC loan is purchased, SBA assesses the liquidation value of the
       collateral using 75 percent of the current appraisal or broker opinion, less the
       amount owed to prior lien holders and anticipated acquisition and disposal
       costs to SBA.

   •   Pursuing guarantors and other available assets. To further reduce the
       outstanding balance of a loan, SBA must evaluate all other assets and the
                                                                                     5


       future earning potential of all responsible parties. Current credit reports, assets
       searches, and the obligors’ financial condition are used to assist in identifying
       resources that can be used to pay down the loan debt. The responsibility for
       collecting this information rests with SBA.

   •   Negotiating compromise agreements. After recovery from collateral and
       other assets has been maximized, SBA can compromise the debt to get
       additional recovery on the loan. Compromises are not recommended when it is
       clear that SBA can collect fully without protracted litigation. To make
       informed decisions that maximize recovery when negotiating compromises,
       SBA must have an adequate evaluation of the obligors’ financial capabilities.

   •   Charging off loans. When SBA has exhausted the prior three steps, it charges
       off the remaining loan balance. This action signifies the end of SBA’s
       collection efforts on the loan. If continued collection actions against the debt
       are not legally prohibited, the loan is identified for transfer to the Treasury
       Department.

   •   Referring loans to the Treasury Department for further collection actions.
       Once a loan is transferred, the Treasury Department continues collection
       actions against the outstanding loan balance through tax offsets and traditional
       collection techniques to collect on SBA’s outstanding debt.

However, despite these requirements, SBA did not:

   •   Perform protective bid analyses, obtain current appraisals, or perfect liens
       to liquidate collateral on 8 loans. SBA missed opportunities to properly
       appraise and pursue its share of up to $5.7 million in collateral. For example,
       on one loan, SBA abandoned about $212,000 of potential equity on the
       identified collateral because it did not obtain a current appraisal of the
       property. On another loan, a deed of trust on a second piece of collateral that
       was not properly filed caused SBA to lose entitlement to any of the proceeds
       when the collateral, which was valued at $987,000, was sold.

   •   Identify and pursue all available assets and guarantors on 16 loans. SBA
       did not obtain current financial information on loans with potential assets of up
       to $12.6 million that was critical for identifying and pursuing all other
       available assets. For example, on one loan SBA lost a potential recovery from
       15 pieces of real estate because it did not identify and pursue the assets. After
       more than 20 months without action, all of the assets dissipated and/or were
       diverted, and were no longer available for collection. On two other loans, SBA
       did not pursue identified guarantors, who had other available assets, including
       outside incomes totaling up to $6.1 million, collectively.
                                                                                   6


   •   Attempt or reach compromises that fully reflected the obligors’
       repayment ability on 14 loans. SBA did not appropriately negotiate
       compromises on 14 loans with outstanding balances that ranged from $58,500
       to $1.2 million. On two loans, SBA did not negotiate a compromise for the full
       amount that the obligor could have paid. For example, SBA accepted $2,000
       on one loan with an outstanding balance of $401,600, despite the obligor’s
       young age and annual earnings of $109,000.

   •   Properly charge off 10 loans. SBA improperly charged off 10 loans without
       fully assessing the potential for recovery on $2.6 million in estimated assets
       and taking all possible collection actions. On one loan, which remained in
       liquidation for over 3 years, SBA did not liquidate collateral, pursue all
       available assets, and reach a fair compromise prior to its charge off.

   •   Properly refer 10 charged-off loans to Treasury. SBA failed to include the
       appropriate obligors or guarantors on 8 loans with $4.9 million in outstanding
       balances in its referral to Treasury for offset or collection actions. On two
       loans, SBA assigned the wrong transmittal code which delayed Treasury’s
       ability to take appropriate action. As a result of this audit, one of the
       miscodings has been corrected.

Based on our sample results, we estimate that SBA did not maximize collections on
up to 339 of the 1,427 loans in liquidation status as of July 29, 2007 that had recorded
purchase dates. These loans had outstanding balances of $106 million. Our results
reflected the findings for only two-fifths of the CDC loans in liquidation because SBA
lacked purchase dates on the other 2,458 loans in liquidation.

SBA Completed a Slightly Lower Percentage of Liquidation Actions After
Centralization and Reduced Backlogs of Older Loans, Even as New Purchases
Increased

In the first 6 months after centralization, the two centers fully completed required
liquidation actions on 71 percent of the loans sampled compared to 72 percent that
were completed by the district offices prior to centralization. As shown in Table 1,
some improvement occurred in two of the five liquidations stages: pursuing
guarantors and all available assets and charging off loan balances. For example, not
all guarantors and assets were pursued on 40 percent of the loans after centralization,
compared with 42 percent of the loans prior to centralization. Also, the centers
improperly charged off loan balances in 29 percent of loans after centralization,
compared with 35 percent of the loans charged off by the district offices prior to
centralization.
                                                                                          7


                  Table 1. Percentage of Loans with Incomplete Liquidation Actions

                                                   Percentage Before   Percentage After
   Liquidation Stage                                Centralization      Centralization
   Liquidate Collateral                                    8                  13
   Pursue Guarantors and All Available Assets             42                  40
   Negotiate a Compromise                                 38                  44
   Charge-off the Loan Balance                            35                  29
   Refer Loan to Treasury                                 40                  44
 Source: SBA loan files



However, the percentage of loans with incomplete liquidation actions increased after
centralization for three liquidation stages—liquidating collateral, negotiating a
compromise, and referring loans to Treasury. For example, collateral was
inadequately liquidated in 13 percent of the loans after consolidation, compared with
8 percent before consolidation. Specifically, SBA did not conduct protective bid
analyses on three loans to determine whether collateral liquidation actions were in
SBA’s best interest and made no assessment of collateral value on one loan, choosing
instead to defer action until the first lien holder acted. On another loan, no collateral
assessments were made to ensure SBA’s interests were protected when collateral was
sold at public auction.

Further, SBA did not attempt to negotiate compromises on outstanding loan balances
on a higher percentage of loans after consolidation. On many of these loans, the
centers simply did not pursue compromise subsequent to collateral liquidation.
Finally, the percentage of loans that were improperly or not referred to Treasury after
charge-off increased from 40 percent prior to consolidation to 44 percent after
consolidation. These loans were either miscoded or did not properly assign obligors.

More significant improvements were not observed in the loans we sampled because
the two centers inherited a large number of incomplete loan files and focused
resources on reducing a backlog of loans older than 24 months that had been
transferred from the district offices and were awaiting charge-off. Prior to
centralization the backlog of loans that were 24 months or older was as high as 509.
This number was reduced to 153 by April 2008. Staff at the service centers focused
on expediting loan charge-offs, which impacted their ability to complete all
liquidation actions required at each liquidation stage.

SBA reduced its backlog of older loans even though the number of new purchases
nearly doubled between April 2006 and April 2008. This dramatic increase
underscores the continued need for SBA to ensure its liquidation actions are
conducted in a timely manner as assets are subject to dissipation, devaluation, or
diversion the longer they are allowed to sit in inventory.
                                                                                   8


Recent Re-engineering of the Liquidation Process Should Further Improve
SBA’s Ability to Manage Increasing Volumes and Expedite Referral of Loans to
Treasury

In April 2008, SBA introduced process improvements and implemented new practices
in order to manage the increased number of newly purchased CDC loans. The new
management processes included:

   •   Implementation of an automated tracking system where each loan is logged in
       as an open item, allowing SBA to monitor the status of loans. SBA anticipates
       this system will reduce delays in processing loans and allow improved loan
       monitoring.

   •   Establishment of a triage unit to expedite loan liquidation by evaluating
       required actions and distributing loans to the appropriate staff based on needed
       actions.

   •   Increased use of Treasury as a debt collection tool. Following collateral
       liquidation, SBA plans to transfer to Treasury all loans where the cost of
       further collection exceeds the potential recovery from available assets or offers
       in compromise.

In addition, SBA increased its planned liquidation staff at the two service centers from
8 to 13 and eliminated its use of SBA contractors for liquidation support. These
changes, which occurred after the completion of audit field work, should further
improve the centers’ ability to timely liquidate loans in order to maximize collections.
However, SBA will need to evaluate if such process and staffing changes have
enabled the centers to complete a higher percentage of required liquidation actions.

RECOMMENDATION
We recommend that the Director of OFPO:

   1. Evaluate whether staffing and process improvements, introduced after the audit
      was completed, have enabled the centers to complete all required liquidation
      actions, and, if not, make appropriate staffing and process adjustments as
      necessary to ensure that loans are properly liquidated.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On February 19, 2009, we provided a draft of this report to SBA for comment. On
March 23, 2009, SBA submitted its formal comments which are contained in their
                                                                                   9


entirety in Appendix III. Specific management comments on the report findings and
recommendation, and our evaluation of them, are summarized below.

Management Comments

SBA management concurred with the recommendation. Management noted that it is
currently rewriting the liquidation procedures under SOP 50 51 to implement
improvements to the 504 liquidation process. SBA’s approach in its process
improvements efforts is to focus resources on those liquidation actions that represent
material sources of recovery and eliminating loans where additional liquidation
actions are not cost effective for SBA to pursue through charge-off and referral to the
U.S. Department of Treasury. According to SBA management, this will provide a
more effective and efficient allocation of scarce Agency resources and fully utilize the
Treasury service that is mandated in the Debt Collection Improvement Act of 1996.
By focusing on liquidation actions that are deemed material to recovery, SBA will
seek to improve recoveries and reduce risk. In its commitment to fully address all
required liquidation actions in the loan files, SBA will document actions where
liquidation actions are not pursued, providing the basis for its decision and the
accelerated referral of the loan to Treasury.

OIG Comments

Management’s proposed actions are responsive to the recommendation. SBA stated
they would monitor the 504 loan liquidation process to ensure that all liquidation
actions material to recovery are taking place and that loans are properly liquidated.
Furthermore, SBA will monitor performance and quality measures on a monthly
basis, measuring areas such as liquidation case resolution rates, timeliness of review
turnaround times, cash recovery rates, and the quality of liquidation decisions.

We will review center activities in the future to determine whether SBA planned
actions and review processes have resulted in increased efficiencies and effectiveness
in 504 loan liquidations.

We appreciate the courtesies and cooperation of the Office of Financial Program
Operations and its commercial loan service centers during this audit. If you have any
questions concerning this report, please call me at (202) 205-[FOIA ex. 2] or Debra
Mayer, Director, Credit Programs Group at (202) 205-[FOIA ex. 2].
                                              10

APPENDIX I. SAMPLED LOANS
     Loan Number       Gross Loan Balance
Before Consolidation
      [FOIA ex. 2]                $854,105
      [FOIA ex. 2]                $612,120
      [FOIA ex. 2]                $230,458
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $129,907
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $157,785
      [FOIA ex. 2]                $329,963
      [FOIA ex. 2]                $197,200
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $452,497
      [FOIA ex. 2]                $243,992
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $462,942
      [FOIA ex. 2]                $208,885
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $180,985
      [FOIA ex. 2]                $552,828
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                  $22,746
      [FOIA ex. 2]                $231,925
      [FOIA ex. 2]                $269,107
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $150,586
      [FOIA ex. 2]                $555,900
      [FOIA ex. 2]                $198,209
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $466,289
      [FOIA ex. 2]                $128,344
      [FOIA ex. 2]                $202,669
      [FOIA ex. 2]                  $89,641
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                  $57,644
      [FOIA ex. 2]                $940,974
      [FOIA ex. 2]                $189,836
      [FOIA ex. 2]                $285,811
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                $197,284
      [FOIA ex. 2]               $1,268,386
      [FOIA ex. 2]                $211,612
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                       $0
      [FOIA ex. 2]                       $0
                                           11

     Loan Number      Gross Loan Balance
      [FOIA ex. 2]              $328,167
      [FOIA ex. 2]              $552,947
      [FOIA ex. 2]              $635,963
      [FOIA ex. 2]               $18,586
After Consolidation
      [FOIA ex. 2]            $1,173,550
      [FOIA ex. 2]             $153,075
      [FOIA ex. 2]             $144,844
      [FOIA ex. 2]             $353,629
      [FOIA ex. 2]             $910,467
      [FOIA ex. 2]             $460,888
      [FOIA ex. 2]             $154,681
      [FOIA ex. 2]             $698,517
      [FOIA ex. 2]             $165,660
      [FOIA ex. 2]             $593,909
      [FOIA ex. 2]             $156,444
      [FOIA ex. 2]                    $0
      [FOIA ex. 2]                    $0
      [FOIA ex. 2]             $868,400
      [FOIA ex. 2]             $248,482
      [FOIA ex. 2]             $239,754
      [FOIA ex. 2]            $1,208,925
      [FOIA ex. 2]             $726,838
      [FOIA ex. 2]             $179,997
      [FOIA ex. 2]             $602,194
      [FOIA ex. 2]             $273,507
      [FOIA ex. 2]             $207,070
      [FOIA ex. 2]             $136,859
      [FOIA ex. 2]             $275,294
      [FOIA ex. 2]            $1,205,589
      [FOIA ex. 2]            $1,057,196
      [FOIA ex. 2]             $197,514
      [FOIA ex. 2]             $255,276
      [FOIA ex. 2]                    $0
      [FOIA ex. 2]             $603,813
      [FOIA ex. 2]             $284,059
      [FOIA ex. 2]             $181,489
      [FOIA ex. 2]             $631,423
      [FOIA ex. 2]             $218,309
      [FOIA ex. 2]             $525,546
      [FOIA ex. 2]                    $0
      [FOIA ex. 2]             $114,534
      [FOIA ex. 2]               $14,733
      [FOIA ex. 2]             $189,945
      [FOIA ex. 2]             $971,510
      [FOIA ex. 2]             $401,580
      [FOIA ex. 2]             $405,321
      [FOIA ex. 2]             $542,102
         Total               $29,349,216
                                                                              12

APPENDIX II. SCOPE AND METHODOLOGY
Our audit objectives were to determine (1) whether SBA’s liquidation efforts
maximized recoveries of outstanding balances on purchased CDC loans, and
(2) whether centralization improved the liquidation process. To determine
whether SBA’s liquidation efforts maximized recoveries on purchased CDC loans,
we reviewed a sample of the 1,427 loans that were in liquidation as of July 29,
2007 that had recorded purchase dates. The universe of purchased CDC loans
with purchase dates from SBA’s Loan Accounting System included 1,234 loans
purchased prior to January 31, 2007, and 193 loans purchased between February 1,
2007 and July 29, 2007. Using the Defense Contract Audit Agency’s EZ Quant
software program, we determined that a sample 95 loans were necessary to be able
to project the audit findings to the universe of 1,427 purchased CDC loans with a
95 percent confidence level. Of the 95 sampled loans, 52, totaling approximately
$9.3 million, were purchased prior to centralization, and 43 loans, totaling
approximately $17.7 million, were purchased after centralization.

We also reviewed SBA and CDC liquidation actions. Specifically, we reviewed
actions taken in attempting workouts with non-paying borrowers, sending
default/demand letters, liquidating of loan collateral, identifying and pursuing
other available assets, attempting compromises on outstanding balances, charging
off outstanding loan balances, and referring loans to Treasury. These steps are
performed to ensure SBA receives the best opportunity to collect on the
outstanding balance on purchased CDC loans. We also assessed the working
relationship between SBA and the CDCs and changes in liquidation proficiency
due to the reorganization.

To determine whether centralization improved the liquidation process, we
identified and compared the number and type of deficiencies in the 52 loans
purchased before and the 43 loans purchased after centralization.

We also interviewed SBA personnel in Headquarters, the Fresno and Little Rock
Commercial Loan Servicing Centers, District Offices, as well as management and
staff at the Community Development Centers. In addition, we analyzed related
financial and chronological postings from SBA’s databases.
14
